Washington, D.C. 20530

September 30, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Stephon Williams v. United States,
S.Ct. No. 20-5304

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on August 3, 2020. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on October 9, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 9, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5304
WILLIAMS, STEPHON
USA

SYDNEY R. STRICKLAND
STRICKLAND WEBSTER, LLC
830 GLENWOOD AVE SE
STE. 510-203
ATLANTA, GA 30316

